   DRG 468: UNRELATED OPERATING
                ROOM PROCEDURES




                   RICHARD P. KUSSEROW
                    INSPECTOR GENERAL




OAI-12-801170                            SEPTEMBER 1989
                                                                                                  !..




                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) is to promote the effciency, effective­
ness , and inregrity of programs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing methods to detect and prevent fraud , waste , and
abuse. Created by statute in 1976 , the Inspector General keeps both the Secreta and the Con­
gress fully and currently informed about programs or management problems and recommends
corrective action. The OIG performs its mission by conducting audits , investigations, and in­
spections with approximately J , 300 staf strategically located around the countr.


                   OFFICE OF ANALYSIS AND INSPECTIONS


This repoI1 is produced by the Offce of Analysis and Inspections (OAI), one of the three
major offices within the OIG. The other two are the Offce of Audit and the Offce of Investi­
gations. The OAI conducts inspections which are , typically, shoI1-term studies designed to de­
termine program effectiveness, effciency, and vulnerability to fraud or abuse.

Entitled " DRG  468: Unrelated Operating Room Procedures " this inspection was conducted
to analyze the characteristics of discharges paid as DRG 468. The repoI1 was prepared by
BOTEC Analysis of Cambridge , MA under contract HHS- lOO- 88- 0019 and the Offce of Anal­
ysis and Inspections, Health Care Branch. The following people panicipated in this project.


David Stone , M.A, BOTEC Analysis

Marcia Meyers, M.PA. , BOTEC Analysis

Mark Kleiman , PhD , BOTEC Analysis

Jeremy Schutte , BOTEC Analysis

Fiona Lee, MEd. , BOTEC Analysis

David Hsia , JD. , MD. , M.PH. , Health Care Branch

Mark Krushat , M.P.   , Health Care Branch

                     Contract Information


Contractor
                            Project Officer
BOTEC Analysis Corporation
            David Hsia ,   J.   , M.   , M. P.H.
36 JFK Stret
                          Health Car Brach
Cambridge, MA 02138                    Offce of Inspector General
                                       330 Independence Ave. , SW
Contract                               Washington , D. C. 20201
HHS- l00- 88- 0019
                                  EXECUTIVE SUMMARY€


BACKGROUND

Diagnosis related group (DRG) 468 pays for discharges in which the patient undergoes an
operating room procedure unrlated to the principal diagnosis occasioning the admission.
This inspection reabstracts a sample of DRG 468 bills to measur their accuracy.

FINDINGS

     Of discharges paid as DRG 468, 24. 8 percent should have been assigned to another
     DRG. This rate significantly exceeds the 18. 6 percent for al DRGs.

     In 83.8 percent of these errors hospitals overpaid themselves , a significantly higher rate
     than the 59. 7percent for all DRGs. These errors project to an estimated $140. 3 million
     in Fiscal Year 1990.

     Physicians caused 40.4 percent of assignment errors by mis-specifying the patients
     principal diagnoses or procedures.

     In 32.   3 percent of incorrect bils, the medical records depanment assigned the wrong
     ICD- CM codes to correctly specified procedurs or diagnoses. This rate of coding
     errors significantly exceeded the 12. 2 percent for all DRGs.

     Durng their second scope of work , the peerreview organizations (PROs) identified
     1.74 percent of DRG 468 bills as being unnecessar admssions. For a comparble
     cycle, SuperPRO identified 14. 0 percent of DRG 468 bils as unnecessar admssions.

     The third scope of work reduces PRO reviews ofDRG 468 bills from 100 percent to 50
     percent. The PROs   did not actualy review 100 percent of DRG 468 bils durng their
     second scope of work.

RECOMMENDATIONS

     The Health Care Financing Admnistration (HCFA) should determine why PRO
     oversight of DRG 468 discharges identifies a lower rate of misclassifications than
     SuperPRO.

     The HCFA should determne why SuperPRO identifies a lower rate of
     misclassifications than this study.

     The HCF A should continue 100 percent review of DRG 468 bils.
                                                                                                                 .................................. .
                     . . . . .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .... .... .... .... .... .... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ...




                                                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY
INTRODCCTION ......................................................


   Background. . . . . €
   PPS vulnerabilities. . . . . . . . . . . . . €
   Claims processing€
   DRG 468 ...........................................................


   Methodology. . . . .
FINDINGS. . . .
   Sample characteristics. . . . . . . . . . . .
   Assignment errors
   Dirction of errors. . . .
   Source of errors. . 


   Reasons for assignment errors. . 


   Financial effects. . . . . . . . . . .                                                                                                                                                                                                        . . . . . . . 11



   Corrct DRG assignments. . . . .
   Clinical review results. . . . .
RECOMMENDATIONS............................................... .€
Appendix A- I: DRG 468 dischares from al PPS hospitas. . . €
Appendix A- 2: DRG 468 sampling fram 

Appendix A- 3: DRG 468 hospital demography. . . . . . . . . . €
Appendix A- 4: DRG 468 hospita demogrphy comparson. . . . €
Appendix A- 5: DRG 468 patient demography. . . . . . . . . . €
Appendix A- 6: DRG 468 comparson of patient demogrphy.                                                                                                                                   ..€
Appendix B-       DRG 468 assignment accuracy. . . . €
Appendix B-       DRG 468 assignment accuracy comparson€

Appendix B- 3:   DRG 468 assignment accuracy by patient demography
                                      ...............................................
                                                            . ... . .. .. .. . .. .
                                      ............................................... .
                                                                                      .
                                           . .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... .... ..............................................................................................................................




 Appendix C- l:        DRG 468 diction of errors by hospital demogrphy. . .
 Appendix C- 2:        DRG 468 diction of errrs comparson
 Appendix C- 3:        DRG 468 dition               of errrs by patient demogrphy

 Appendix D- I: DRG 468               hospital depanment makng errors€
Appendix 0- 2:         DRG 468 hospital depanment makng errrs comparson€
Appendix D- 3: DRG 468 hospital deparent makng errors by patient
                       demogrphy. . .
Appendix E- l      :   DRG 468 reasons for errrs.                                           .
Appendix E-            DRG 468 reasons for errrs by hospital demogrphy
Appendix E-            DRG 468 reasons for errors comparson. . .
Appendix E-            DRG 468 reasons for errrs                                   by patient                             demogrphy. . .
Appendix      l:       DRG 468 corrected relative weights
Appendix    2:         DRG 468 correcte reimburement. . . .
Appendix    3:         Overpayment projection. . . . . . . . . . . . . . .
Appendix G- I:      Correct     MDC      for discharges incorrectly assigned to
                       DRG 468
Appendix G- 2:         Correct DRG for discharges incorrectly assigned to
                       DRG 468
Appendix H- l: DRG 468 clinical review.                                          ...
Appendix H- 2: DRG 468 cliical review comparson. . . .
Appendix I: HCFA commnts
                                     INTRODUCTION


BACKGROUND

On October I , 1983, the Health Car Financing Admistration (HCFA) began implementing a
new system of payment for inpatient hospital services under the Medcar program. The new
prospective payment system (PPS) replaced the cost- based reimbursement system. Congrss
mandated this change because of rapid growth in health care costs, panicularly inpatient ex-
penses under Medicare.

Under PPS, hospitals received a pre-established payment for each discharge, based upon the
diagnosis related group (DRG) to which the discharge is assigned. PPS classifed discharges€
inro clinically coherent groups which used simlar amounts of hospital resources, based on
varables such as diagnosis; evaluation and tratment procedures; and patient age, sex , and dis-
charge status. Each of the 473 DRGs had an associated relative weight , which represented the
average cost for hospital care provided to patients with diagnoses grouping to that DRG as a
propoI1ion of the cost of the average patient. The hospital received this payment , independent
of the actual length of hospitalization or cost of tratment for the individual patient. The hos-
pital retained any surplus from patients consuming less than the expected amount of resources,
and suffered losses on those patients consuming more.

The shift from cost- based , retrospective reimburement to prospective payment constituted
one of the most dramatic changes in health care reimbursement since the creation of Medicare.€
A fixed payment per discharge induced hospitals to inplement economies and reduce unneces-
sar services. The total payments to the hospitas provided the same financial resources for pa-
tient car. In effect , PPS reverse the financial incentives for hospitals. Where the€
cost-reimbursement system rewarded longer hospita stays and more costly treatments, PPS re-
warded earlier discharges and less costly procedurs. One of the first consequences of the
new payment system was a drop in average length of hospita stay for Medicar patients.

P PS vulnerabilities



The advent of PPS created new oppoI1unities for manipulation or " gamng " to increase hospi-
tal revenues frm Medicar patients. To protect the integrty of PPS and maitain quality of
care Congress established the peer review organizations (PROs) to monitor hospital activities.

The Office of the Inspector General (OIG) conducted the National DRG Validation Study to
surey the general accuracy of DRG assignment and quality of car performed by hospitals
under PPS. Its examation    of 700 medcal reords and established that assignment errors re-
sulted in $300 million in overpayments to hospitas and that the majority of overpayments
could be trced to assignment errrs affecting a small number of DRGs. This repoI1 is one in
a series    examing assignment accurcy of one of the DRGs identified as having the highest
impact on overpayments under PPS and the gratest potential for cost recovery.

The PPS gaming takes two principal forms: optimization and creep. "
                                                                     Optimization " strate-
gies adhere to coding rules, but maxinize hospital reimbursements by selecting the most ex-
pensive among viable alternative principal diagnoses or adding more secondar diagnoses.
The PPS permts optimization , which flows from the basic incentive strcture of the PPS sys-
tem.

 DRG creep " results from codng practices which do not conform to codng rules. Sources of
DRG creep include:

       Misspecification:   The attending physician wrtes an incorrect principal diagnosis
       (defined by the Uniform Hospital Discharge Data Set (UHDS) as " that condition
       established after study to be chiefly responsible for occasioning the admission of the
       patient to the hospital for care ), secondar diagnoses, or procedures on the attestation
       sheet.

       Miscoding:   The hospital assigns incorrect numeric codes to diseases or procedurs€
       correctly attested to by the attending physician.€

       Resequencing:       The hospital substitutes a seconda   diagnosis for the corrct principal
       diagnosis.

Auditing and review practices seek to cunail ilegal creep by identifying discharges in which€
coding rules are misapplied or ignored.

Claims processing

Under PPS , the hospita fies a clai for Medicare reinbursement upon discharging the benefi-
ciar. At the tie of discharge, the attending physician attests to the pricipal diagnosis which
caused the patient s 'admssion to the hospita , seconda diagnoses , and procedures (diagnos­
tic and therapeutic) provided. The hospital trslates the nartive diagnoses of the
physician s attestation statement intO numeric codes based on the International Classification€
of Diseases, Ninth Revision , Clinical Modcation (lCD- CM), and prepars a claim. Fiscal
intermediar (F organizations, working under contract with HCFA , enter the hospital' s codes
into the GROUPER computer progr which assigns the appropriate DRG for reinbursement.€

Hospital reinbursement is calculated by multiplying the " relative weight " of each DRG cate-
gory by a standardized amount, as modfied by ceI1n hospital-specifc factors. The relative
weight of each DRG vares above or below 1.00 accordig to the average amount of hospi-
tal resoures used by patients in that diagnostic grup. The higher the relative weight , the
greater the reimburement. Mis-assignment of the ICD- CM categories, or erroneous assign-
ment or sequencing of patient diagnoses , can thus have significant financial implications.
                                                           , "€           ..


DRG 468€

This study examnes erroneous assignment and gamng in a single DRG: 468 , unrlated oper-
ating room procedures. Accordig to the ICD-               Patients are assigned to patient class
468 when all operating procedures performed are unrelated to the patient s principal diagno-
sis. " For example, if a patient enters the hospital because of pneumonia , falls out of bed , and
therefore undergoes onhopedic surgery; the discharge groups to DRG 468, rather than to ei-
ther DRG 89 (pneumonia) or DRG 218 (lower extremity surgical procedures). Because of its
high relative weight , DRG 468 remais susceptible to inproper creep.


                                         Figure    1:   DRG 46



                                                                               Relative Weight

                                                                               Discharges (1 OK)


                                                                          -4   Charges ($100M)


                                                                          -e   Payment ($1 OOM)


                                                                          -? Mean payment ($1 K)




     1984                1985                     1986            1987€
                                  Fiscal Year


For this reason , the PROs ' second " scope of work" requirs them to review all DRG 468 dis-
charges. In its fust 18 months, they repon reviewing 120, 670 (80. 2 percent) of the population
of 150,483 discharges. It subseuently incrased to 91.9 percent. Nevenheless, the third
scope of work decreases PRO review of DRG 468 bills to 50 percent.

Of the ftrst 11,415 DRG 468 bils reviewed, the PROs found 9. 5 percent to be erroneous, a
higher rate than for other DRGs. By the end of the second scope of work , the errr rate re­
poned by the PROs increased to a cumulative 11. 1 percent on DRG 468 bils. For an approxi­
mately comparble period, SuperPRO checked the PROs ' reabstractions and identified 14.
percent of DRG 468 bils accepted by the PROs as acrually grouping to other DRGs. Unfonu-
nately, SuperPRO cycles do not corrlate precisely with PRO scope of work periods.

METHODOLOGY€

This study examnes DRG 468 discharges from the same sampling frame as the National DRG€
Valdation Study. The National DRG Validation Study used a strtified two-stage sampling
 \.   --.                                                                     ::'




 design based on hospitals to select medical records for review. The first stage used simple
 dom sampling without replacement to select 80 hospitals from each of three strata based on
                                                                                             ra-
 bed size: less than 100 beds (small), 100 to 299 beds (medum), and 300 or more beds (large).
The second stage of the design employed systematic random sampling to select DRG 468 bils
from the 239 stage-one hospitals (one hospital dropped out) for Medicar discharges between
October I, 1984 and March 31 , 1985.



                                  Figure 2: Sampling frame



                                                                            EZ 0:100
                                                                            ;( 100- 299
                                                                                    j 300+





      DRG 468                                 All   DRGs



The OIG contrcted with the Health Data Institute (HDI) of Lexington, Massachusetts to
reabstrct the entie sample ofrecords. Upon receipt ,  the contrctor " blinded" the ICD-
codes by covering them , and assigned an identification number to each record. An accredited
record technician or registered reord admnistrator proficient in ICD- CM codng reviewed
the entir record to substatiate the principal diagnosis, other diagnoses,
                                                                        and proedures indi-
cated by the attendig physician in the narative attestation form. Any records which did not
suppon the assigned DRG classification were referr to physician reviewers. The physician
reviewers designated the corrct UHDS principal diagnosis , additional diagnoses
                                                                                , and proce-
dures substatiated by the patient records. The GROUPER computer        progr processed the
reabstracted ICD- CM codes to determe correct DRGs. A full discussion of the methodol-
ogy and fmdings of the contrctor record review is available in the fmal repon of the National
DRG Validation Study (available from OIG Public Affais).
                                                                      ........,.........€




The DRG 468 was chosen for this inspection because of its high relative weight (2. 0818)           and
a high ratio of overpayments. The OIG contrcted With BOTEC Analysis of Cambridge , MA
to examne data for DRG 468 in grater detai , to identify sources of codng errrs , and to
make recommendations for recovery of overpayments.




                                Figure 3: Hospital demography




    DRG 468: Urban                                                                                 Ves€

    All DRGs: Urban



 DRG 468: Teaching
                                                          no,_,,_,....€

 All DRGs: Teaching



    DRG 468: Profit

    All DRGs: Profit


                                                                                            100€

                                               Percent€
                                          FINDINGS€


Sample characteristics€

In FY 1985, 114 526 of the 8. 3 million prospective payment discharges (1.4 percent) grouped€
to DRG 468. The National DRG Valdation Study estimates that they came principally from€
large and medium sized hospitals. In the ftrs hal ofFY 1985, the 239 hospitas in the sam-€
pling frame biled for 222 396 discharges of which 2, 765 came from DRG 468. The first
stage of the sample design reflects the population s distrbution by hospital size, while the sec-
ond stage intentionally oversamples small hospitals to increase statistical effciency. The high
sampling fraction in small hospitals (20. 3 percent) reflects the scarcity of DRG 468 discharges€
in that strata. (Appendi A-€

Additionally, the two-stage sample design permts calculation of separate results for Medicar€
beneficiares (the probability of something happening to a person) and hospitals (the odds of€
an event at a panicular hospital). The appendices, tables, and char therefore repon individ-€
ual totals weighted by both discharges and hospitals.€

Approxinately equal numbers of DRG 468 discharges in this sample came from small
medium , and large hospitals. Unless strta weighted by discharges, the proporton of cases
from small hospitals over-represents its PPS population , while medium sized and large hospi-
tals under-represent theirs. This diference in the composition of discharges attaned statistical
significance (Chi-square 7. 38, df 1 , Po:O. Ol). (Appendix A-

                                      Table I: Patient demography


                           DRG 46            National DRG            Medicare€
                                             Validation Study

       Age (years)         68.                    73.€               not available
       Sex (% male)        60.                    46.€              42.
       LOS (days)          5816                   3150€             2985 urban
                                                                    2381 rural

       Mortalny (%)                                                 not available€




Like all discharges under PPS , the majority of DRG 468 discharges cam from urban , non-
teaching, and nonprofit hospitas. (Appendix A- 3) While the genera pattern of discharges
was simiar, the DRG 468 sample (discharge-weighted) diered from estimates for all PPS dis-
charges in having a signifcantly grater proporton of discharges frm urban (Mantel-
   Haenszel Chi-square 5.€ , df 1 , P-c0. 025), teaching (Mantel-
                                                                  Haenszel Chi-squar 8.40 ,
   P-c0. OO5), and for- profit hospitals (Mantel-                                                df 1
                                                  Haenszel Chi-square 13. , df I , P-c0. 005).
   (Appendi A-


  Discharges paid as DRG 468 were
                                      , on average , younger patients and more frequently male
  than all PPS discharges. (Appendix A- 5) Their average length of hospita stay (LOS) was al­
  most 5 days longer than that found in the National DRG Validation Study, and they died at a
  slightly higher rate. The average reimbursement for discharges assigned to DRG 468 was sub­
  stantialy higher than in the National DRG Validation Study and for all
  ference which proved to be statistically significant (Students-t 23.       PPS discharges , a dif­
  (Appendi A-
                                                                         , df 80 , P-cO. OOI).

  Assignment errors€

 Reviewers determned that 24 of the 81 discharges in this sample should have been assigned
 to another DRG. This represents an error rate of 24.
                                                      8 percent when weighted by discharge to
 approxinate the underlying population. In contrast
                                                    , the National DRG Validation Study found
 an average error rate of 18. 6 percent among all DRGs.€




                                     Figure 4: Assignment errors€
       Percent


                                                                                     DRG 468
                                                                               F&J ALL DRGs




                    ,,100
             100- 299           300+

                                       Bed size

Within the DRG 468 sample, errrs were sharly higher
                                                        among discharges from small hospi­
tals. Hospitals with less than 100 beds made assignment
                                                        errrs much more frequen"
other hospitals in the DRG 468 sample, and nearly twice as often as small hospiw y than
National DRG Validation Study. Large hospitas also made assignment               .n the full
                                                                          errrs m( .: frequently
on DRG 468 discharges than on all DRGs included in the National DRG Validation Study.
(Appendi B- 1 J


Examned by demogrphic charcteristics          ru hospitals had a higher rate of assignment er­
rors than urban hospitals. Teaching hospitas exceeded non-teaching facilities in mis-assign-
ments. For- profit hospitals were responsible for the highest rate of assignment errors,
assigning 8 out of 17 discharges (47.   1 percent) incorrectly to DRG 468. (Appendix B-

Patient demographics differed between discharges assigned correctly and incorrctly bythe
hospitals. Discharges incorrectly charged to DRG 468 were on average slightly younger, had
a lower proporton of males , and died over    th
                                             times as fruently. Incorrectly assigned dis­
charges had approxinately the sam lengt of hospital stay, but reimbured at a higher rate
than those which were corrctly paid as DRG 468. (Appendix B-

Direction of errors

Twenty of the 24 discharges incorrctly assigned to DRG 468 resulted in overpayments to the
hospitals (83. 8 percent discharge-weighted). Hospitas should have coded and billed these
                                                                                              dis­
charges to DRGs with lower relative weights than DRG 468. Within each hospital demo-
graphic category, the rate of overpayment was similarly high for hospitas in each strta. The
83. 8 percent overpayment rate multiplied by the 24. 8 percent error rate produces an effective
overpayment rate of 20. 8 percent. This DRG 468 overpayment rate is almost twice the effec­
tive overpayment rate for the National DRG Validation Study (11. percent). (Appen dix C-


                                 Figure 5: Direcion of errors

Percent


                                                                                      DRG 468

                                                                                     DRG 468

                                                                                fS ALL DRGs
                                                                                     ALL DRGs




              -:100                 100- 299               300+
                                   Bed size
The proporton of overpayments differed among hospitals tys. Urban and teaching hospi­
tals overpaid themselves much more frequently than rual and nonteaching hospitals      urban
hospitals overpaid themselves on 91.3 percent and teaching hospitas on 100. 0 percent of dis­
charges which were incorrectly assigned. Rur hospitas, in contrast , overpaid themselves on
29.4 percent and nonteaching hospitals on about one- third (66. 7 percent) of incorrect submis-
sions. The proponion of overpayments was simlar amng nonprofit and for- profit hospitals
(28. 7 percent and 91.0 percent). (Appendix C-

Turing to patient demographic characteristics, discharges which were overpaid had slightly
older patients and fewer male patients. The length of hospitals stay was similar between the
two groups , but the reimburement to hospitas was alost $1 00 higher on discharges which
resulte in hospitals overpayments. (Appendix C-


Source of errors€

On 16 of the 24 discharges which were incorrctly paid as DRG 468, the medcal records de-
parent incorrctly coded the record as DRG 468 and the hospital charged accordingly. In
eight discharges, the medical records deparent corrctly coded the discharge to another
DRG but the hospital biled the discharge as 468 anyway. Biling errors by the hospitals ad-
ministration were concentrted in discharges from small hospitals (45. 5 percem of errors) and
large hospitals (37. 5 percent). None of the discharges frm mid-size hospitals were incor-
rectly paid as DRG 468 due to billing errrs alone. (Appendi D-

The proponion of codng and biling errrs     also vared among hospitas by location and typ.
Among discharges from urban , teaching, and nonprofit hospitas the majority of errrs oc-
currd when records incorrectly coded as DRG 468 were billed accordngly. In contrst, 50.
percent of the errors in discharges frm  ruhospitas, 33. 3 percent of those from nonteach-
ing hospitals   , occurd when the hospita incorrctly biled a correctly coded record. Among


                                 Figure 6: Reasons for coding errors€


                                                                                Misspecification€

                                                                                Miscoding€

                                                                                Resequencing€

                                                                         t2     Other€




      DRG 468                                 All DRGs
(Appendi D-    2)
discharges from for- profit hospitals , biling errors were also more fruent   (50. 0   percent).


                                                               either coded or biled in-
Patient charcteristics did not var substatially betWeen discharges
                    proporton of males, and rate of moI1ity were similar. Discharges on
corrctly. Patient age,
which the hospita admnistrtion changed the medcal codng at the time of biling had aver-
age hospita stays 4 days longer than discharges which were incorrtly coded by medical re-
cords, and were reimbursed at a slightly higher rate. (Appendi D-

Reasons for assignment errors


Errors in codng discharges to DRG 468 were caused in about equal proporton by physician
mis-specifcations, hospita miscodng, and a varety of " other" errrs. In comparson to the re-
sults from the National DRG Validation Study, this represents a parcularly high rate of
miscodng errors , a low rate of errors due to resequencing, and a high rate of "other" errors.
(Appendix E-


Physicians caused 8 of the 24 errrs on       G 468 discharges by mis-specifying nartive diag-
noses or procedures on the patients ' Attestation Sheets. These mis-specifications concerned
the principal diagnosis in 5 discharges, the seconda diagnosis in 1 and procedures in 3. An-
other 8 of the 24 errors resulted when hospitas selected the wrong code for a correct nartive
diagnosis or proedure. Hospitals most frequently miscoded proedures (6 discharges).
Seven of the discharges were incorrectly biled and paid due to " other" reasons. Only one
error resulte from hospital reseuencing of the nartive diagnosis to substitute a seconda
diagnosis for the corrct principal diagnosis.



                                  Figure 7: Overpyment projecion
           $ million

         150



         100




                 1984      1985        1986      1987      1988       1989         1990

                                              Fisc Year
Reasons for assignment errrs differed little by hospita size, location , teaching or profit sta­
tus. (Appendi E- 2) Mis-specifications by the attending physician were parcularly frequent
however, in discharges from mid-sized hospitas. Among patient demographics, age and gen­
der were similar across all categories. However, the length of hospita stay, reinbursement,
and rate of moI1ity were parcularly high in discharges on which physicians made mis-speci­
fications. (Appendi E-

Financia effects

After reabstrction, the relative weight for discharges in    this sample droppe frm an average
of 2. 0818   to   1.8991 , a discharge weighted decase of 9. 1 percent. The mean reinbursement
change raged from $1126 for small hospitas ,         thugh $625 for large hospitas, to $351 for
medium sized hospitals. Weighted by discharges , this 81 case sample found $54 709 in over-
payments from 24 codng errors. Extrpolation to the enti Medcare population projects $66
million in errors during the study year. The overpayments rise continuously to $ 107. 8 milion
in FY 1988 and $140.3 milion in FY 1990. (Appendix F-


                                      Figure 8:   Clinical Incidents

                                                                                       Percent

DRG 468

National
DRG study




                            Premature discharge     Poor quamy care     Unneeded admissions




Correct DRG assignments

No panern distinguished the corrt DRG assignments for the miscoded DRG 468 discharges.
(Appendi G- 2J Reviewers assigned the 24 dischares incorrectly paid as DRG 468 to 23
alternative DRGs after reabstrction. The corrt DRG assignments distrbuted among 15 dif­
ferent Major Diagnostic Categories (MDCs). (Appendi G-
Clinical review results

Only three of the discharges in this sample were judged by reviewers to be inappropriate ad-
missions ("an admssion in which the car received by the patient was either not neeed or did
not require the use of the inpatient settng. ) This rate, 2. 7 percent when weighted by dis­
charge, was substantially lower than the rate in the National DRG Validation Study. Review­
ers identified only one premature discharge in the DRG 468 sample. (Appendix H-

Reviewers identified quality of care " not meeting professionally recognize standads " in 5 of
the 81 discharges paid as DRG 468, a rate of 5. 7 percent when weighted by discharge. This is
approximately the sam rate found acrss all DRGs in the National DRG Validation Study.
Quality of car problems were somewhat higher amng DRG 468 discharges from small hos­
pitals (8.   3 percent) and pancularly low in discharges from large facilities (1.2 percent).
(Appendix H-
                                RECOMMENDATIONS€


     The HCF A should determne why the per review organization oversight of DRG 468
     discharges identies a lower rate of misclassifications than SuperPRO.

     The HCF A should determne why SuperPRO identifies a lower rate of
     misclassifications than this study.€

     The HCFA should continue 100 percent review ofDRG 468 bils.€


The HCFA reviewed a drt of this inspection repon and disagres with these recommenda-
tions. (Appendix IJ The Offce of Inspector Genera continues to believe that implementation
of these recommendations would save $140. 3 millon annually.
                        ($)





Appendix A-    DRG 468 discharges from all PPS hospitals

Fiscal Year                                1984            1985                   1986              1987

Relative weight                              1037            0818                     2248            4516
Number of discharges                          145          114 526                  125 811         117 377
Total charges ($ million)                  579.                 175.                  447.           , 447 . 9
Total reimbursement ($   million)          396.            n9.                      887.            938.
Average reimbursement                        990                368                   053             998


Appendix A-    DRG 468 sampling frame

Number	                            Bed size
                                   (100            100- 299           300+                  Total
Medicare population    (FY 85)       944                  915            667                114 526
Sample hospitals                   118             741                1906                    765
Sampled
Sampling fraction                   (20.           (3.                   (1. 5)             (2.


Appendix A-    DRG 468 hospital demography

Number         Bed size                                     Wei   hted              ercenta
(Percent)      (100 100- 299   300+ Total                   Sample                  Discharge Hospital
Urban             (45.      (75.       (92.                              (n.   8)(82. 2) (63.
Rural             (54.     (24.       (7.                                (27. 2) (17. 8) (36.
Teaching         (33.      (17.        (64.                              (38. 3) (41.6) (33.
Nonteaching       (66.   24 (82.    10 (35.                              (61.7) (58. 4) (67.

Profit            (41.7)   (24.       (0.                                (21.0) (13.  4) (29.
Nonprofit      14 (58.       (75.      (100)                             (79. 0) (86. 6) (70.
Total          24 (100)        29 (100)           (100)                  (100) (100) (100)
Appendix A-      DRG 468 hospital demography          comparison
Percent          Bed size                Wei hted       ercenta
                 (100 100- 299      300+ Sample         Discharge Hospital
Urban	      DRG 468   45.     75. 92.           72. 8   82.   63.
            NDRGVS    19.     70. 2 94.         62. 0   71.5 48.

Rural	      DRG 468   54.     24.               27. 17. 8 36.
            NDRGVS    80.     29.               38. 0 28. 52.
Teaching	   DRG 468   33.     17. 64.           38. 3   41.6 33.
            NDRGVS            18. 8 55.         25. 9   31.9 16.

Non-        DRG 468   66. 7   82. 8 35.         61. 7   58. 67.
teaching    NDRGVS    97.     81.2 44.          74.     68. 2 83.
Profit	     DRG 468   41. 7   24. 1 0.          21.0 13. 4    29.
            NDRGVS            17.                             10.
Nonprofi t€ DRG 468   58. 3 75.     100.        79. 0   86.   70.
            NDRGVS    90. 82.       97.         90. 2   90. 6 89.



Appendix A-      DRG 468 patient demography
                 Bed size                  Weighted average
                 (100 100- 299      300+ Sample Discharge Hospital
Age (years)            68. 2 69. 5 67.          68. 4 68.      68.
Sex (% male)           54. 2 51.7 71.4          59. 3 61.6     56.
LOS (days)             10. 2 10. 1 14.          11. 7 12.	     10.
Payment ($)           4959 5530 6416            5667 5929      5375
Mortali ty (%)           0 6.    9 10.              2 8.
               (%)





Appendix A-
          DRG 468      comparison        of patient demography
                            Bed size                       Wei hted avera
                            (100 100- 299             300+ Sample    Discharge Hospi tal
Age   (years)         DRG 468       68. 69. 67.                      68.        68.        68.
                      NDRGVS        76. 2 74. 0 72.                  74.        73.        74.
Sex (% male)          DRG 468       54.      51.7 71.                59.        61. 6      56.
                      NDRGVS        43.      45. 448.                45. 7      46.        44.
LOS   (days)          DRG 468       10.      10.      14.            11. 7      12.        10.
                      NDRGVS

Payment (S)           DRG 468       4959 5530 6416                   5667 5928             5375
                      NDRGVS        1849 2923 3807                   2860 3074             2508
Morta1i ty
           DRG 468                         10.
                      NDRGVS



Appendix B-
          DRG 468 assignment accuracy

Number                Bed size                                       Wei     hted         ercenta
(percentJ             (100 100- 299       300+ Total                 Sample               Discharge    Hospi tal
Urban                   (45. 5J        (22.   7 J(23.          1 J                  (27. 1J (24. 5J (34.
Rural                   (46. 2J        (O.              (100.                       (36. 4J (52. 7J (39.
Teaching                (62. 5J        (40.             (27.                        (38. 7J (35. 5J (49.
Nonteaching             (37. 5J        (12. 5J          (30.                        (24. 0J (22. 9J (28.
Profit                  (60 . OJ       (28.             (O.                         (47. 1J (16. 6J (40.
Nonprofit               (35. 7J        (13. 6J          (28. 6J                     (25. 0J (22. 6J (27.
Total                    (45. 8J       (17.             (28. 6J                     (29. 6J (24. 8J (33.
 ($)
 (%)




Appendix                DRG   468 assignment        accuracy comparison
Percent€                Bed size                    Wei   hted           ercenta
                        GOO 100- 299         300+ Sample                 Discharge Hospital
Urban€           DRG   468     45.   22.     23.             27.         24.     34.
                 NDRGVS        22.   19.     16.             18.         17.     20.
Rural€           DRG 468       46.           100.            36.         52.     39.
                 NDRGVS        23.   16.     22.             21. 9       20.     21.3
Te,,'   :hing€   DRG 468       62.   40.     27.             38.         35.     49.
                 NDRGVS        20.   20.     15.             17.         17.     19.
Non-             DRG 468       37.   12.     30.                 24.     22.     28.
teaching         NDRGVS        23.   17.     17.                 20.     19.     20.
Profit           DRG 468       60.   28.                         47.     16.     40.
                 NDRGVS        23.   18.     18.                 20.     19.     21.3
Nonprofi t DRG 468             35.   13.     28.                 25.     22.     27.
           NDRGVS              23.   18.     16.                 19.     18.     20.
Total            DRG 468       45.   17.     28.                 29.     24.      33.
                 NDRGVS        23.   18.     16.                 19.     18.      20.


Appendix B-             DRG 468 assignment accuracy by patient demography


                        Bed size                  Wei hted avera
                        GOO 100-299          300+ Sample    Discharge Hospi tal
Age              Correct       76.   69.     64.                 69. 4   67. 7 72.
 (years)         Incorrect 58. 4     70. 2 73.                   66. 0   71.2 64.

Sex              Correct       53.   58. 3 80.                   64. 68. 59.
(% male)         Incorrect 54. 5     20. 0 50.                   45. 8 37. 2 42.
LOS              Correct             10.     16.                 11.8 13.      2 9.
 (days)          Incorrect 13. 5 9.          10.                 11. 6   10.     11. 6

 Payment         Correct       4873 5487 6717                    5779 6053 5365
                 Incorrect     5061 5738 5664                    5403 5654 5377

 Mortali ty      Correct
                 Incorrect 0.        20. 0   25.                 12. 5   21. 1   10.
Appendix C-l:     DRG 468 direction of errors by hospital demography
Number of         Bed size                                      Weighted percentage
overpayments
(Percent)
                  (100 100- 299           300+ Total            Sample Discharge Hospital
Urban                  (100.      4 (80.             (100.           (93.     (91.3) (93.
Rural                  (66.       0 (0.              (50.            (62.     (29.     (42.
Teaching               (100.      2 (100. 0)     5 (100.             (100. 0) (100. 0) (100.
Nonteaching       4 (66.          2 (66.         2 (66.              (66.     (66.     (66. 7J
Profi t           6 (100.           (50. OJ      0 (0.               (87. 5 J (28. 7J (67.
Nonprofi t             (60.         (100.        7 (87.              (81.3) (91.      (77.
Total                  (81.8)     4 (80.         7 (87.              (83.     (83.    (82.

Appendix C-       DRG 468 direction of errors comparison
Percent                   Bed size                              Weighted percentage
overpayments              (100            100- 299       300+ Sample         Discharge Hospital
Urban        DRG 468      100.            80.            100.        93.          91.3
                          53.                                                                    93.
             NDRGVS                       60.            57.         58.          57.            56.
Rural        DRG 468      66.                            50.         62.          29.            42.
             NDRGVS       66.             57.            65.         64.          62.            63.
Teaching     DRG 468      100.            100.           100.        100.         100.
                          66.                                                                    100.
             NDRGVS                       59.            56.         57.          59.            62.
Non-         DRG 468      66.             66.            66.         66.          66.
teaching                  64.                                                                    66.
             NDRGVS                       59.            59.         61. 7        60.            61. 9
Profit       DRG 468      100.            50.                       87.           28.            67.
             NDRGVS       68.             55.            63.        60.           61. 7          63.
Nonprofit    DRG 468      60.             100.           87.        81.3          91.0           77.
             NDRGVS       63.             60.            57.        60.           59.            61. 6
Total        DRG 468      81. 8           80.            87.        83.          83.             82.
             NDRGVS       64.             59.            57.        60.          59.             61. 6
 ($)
 (%)




  Appendix C-3:    DRG 468 direction of
                                            errors by patient        demography
                             Bed size
                             (100 100-299               Weighted average
                                                   300+ Sample        Discharge Hospital
 Age          Overpaid
  (years)                    65.           66.         74.
              Underpaid      28.           85.                        68.     70.      67.
                                                       67.            52.     72.      52.
 Sex          Overpaid
 (% male)                    44.           25.         42.
              Underpaid      100.                                     40.     35.     37.
                                                       100.           75.     56.     67.
 LOS          Overpaid       16.
 (days)       Underpaid                                              11. 7
                             11. 0        24.          18.           11.0 19.
                                                                                      11. 6

 Payment€                                                                             11.
              Overpaid      5231          5825
              Underpaid     4295                       5788          5545 5766 5513
                                          5389         4798          4694 5021 4731
 Mortality€Overpaid
            Underpaid                     100.         100.          70.      93.     48.
                                                       14.

Appendix D-l:     DRG 468 hospital department
                                                    making errors
Number            Bed size

errors by the     (100 100-299       300+ Total       Weighted percentage
coding department (Percent)                           Sample         Discharge Hospital
Urban               (40.
Rural                            (100.      (83.              (75.
                    (66.         (0.        (0.                        (87.       (66.
                                                              (50.     (4.       (34.
Teaching            (40.
Nonteaching                      (100.      (80.              (66.
                    (66.         (100.      (33.                      (85.          (65.
                                                              (66.    (64.          (72.
Profit              (33.      (100.
Nonprofit           (80.                   (0.                (50.    (45.          (49.
                              (100.        (62.               (75.
Total                                                                 (80.          (83.
                    (54.      (100.        (62.               (66.    (78.          (70.
(($ )
  %)€




   Appendix D­
        DRG 468 hospital department
                                                                            making     errors comparison
   Percent of errors              Bed size

         coding                    (l00                                           Weighted percentage
   by the

  department                                           100- 299     300+ Sample                 Discharge Hospital
  Urban       DRG 468             40.                  100.         83.                75. 0   87.   66.
              NDRGVS              89.                  88.          90.                89. 7   89. 7 89.
  Rural       DRG 468             66.
              NDRGVS              94.                  95.                             50. 0 4.        34.
                                                                    90.                94. 93.         94.
  Teaching    DRG 468            40.                  100.
              NDRGVS                                               80.                66. 7 85. 65.
                                 91. 7                92.          89.                90. 3 91.0 91.6
 Non-         DRG 468            66.
 teaching                                             100.         33.                66. 7
              NDRGVS             93.                  90.          92.
                                                                                               64.     72.
                                                                                      92.      91. 8    92.
 Profi t	     DRG 468            33.                  100.
              NDRGVS             86.                                                  50. 0 45. 9      49.
                                                      92.          81. 8              89. 86. 5        87.
 Nonprofi t	 DRG 468            80.                   100.         62.                75. 0
             NDRGVS             94.                   90.          90.
                                                                                               80.     83.
                                                                                      92.      91. 4   92.
 Total        DRG 468           54.                   100.
              NDRGVS            93.                                62.                66.      78.     70.
                                                      90.          90.                91. 7    91. 2   92.

Appendix D-3:      DRG 468 hospital department
demography                                                               making      errors by patient

                  Bed size                                    Weighted average
                  (l00 100-299                       300+ Sample Discharge Hospital
Age          Billing           64. 5 0.  67.                      66.         37. 8 43.
(years)      Coding            52. 70. 2 77.                      65.         72. 62.
Sex          Billing           60. 0 0.    33.                    50. 0
(% male)     Coding            50. 0 20. 0 60.                               20. 6 36.
                                                                  43. 8      41.   41.8
LOS          Billing          16. 0 0.               11. 7        14.
(days)       Coding           11.3 9.                                                10.
                                                                  10. 2 9.           10.
Payment      Billing          5444 0    5424                      5437 3061 3666
             Coding           4741 5737 5808                      5386 5703 5234
Mortality Billing                                    33.
             Coding                                               12.       16.
                                          20. 0      20.          12.       18. 6 9.
Appendix            DRG 468 reasons for errors
                         Bed size
                         (100 100- 299  300+ Total       (Percent)
Mis-specification
    Principal diagnosis                                  (20.
    Secondary diagnosis                                  (4.
        Procedure                                        (12.
Miscoding
        Principal diagnosis                               (8.
     Procedure                                            (24.
Resequencing
        Incorrect sequence                                (4.
Other
           hospital codes                                 (4.
        other                                             (24.
Total                                                     (100.


Appendix E-         DRG 468 reasons for errors by hospital demography


Number              Narrative      Miscoding         Resequencing    Other
(Percent)
(100 beds                (27.           (36.              (0.                (36.
100- 299 beds            (60.           (40.              (0.                (0.
300+ beds                (25.           (25.              (12.               (37.
Urban                    (37.           (37.              (6.                (18.
Rural                    (25.           (25.              (0.                (50.
Teaching                 (33.           (33.              (8.                (25.
Nonteaching              (33.           (33.              (0.                (33.
Profit                   (25.           (37.              (0.                (37.
Nonprof it               (37.           (31.3)            (6.                (25.
Total                    (33.           (33.              (4.                (29.
                (%)





  Appendix E-3:         DRG 468 reasons for errors comparison
  Percent                     Bed size
                      Weighted percentage

                              (100 100-299          300+ Sample Discharge Hospital
  Mis- speci-           DRG 468
  fication                          27.    60.      25.           33.
                        NDRGVS      49.    44.                            40.      37.
                                                    49.           48.     47.      48.
 MiScoding             DRG 468      36.    40.      25.          33.      32.
                       NDRGVS       10.    14.      11. 4
                                                                                   35.
                                                                 11. 9    12.      11. 8
 Resequencing          DRG 468                     12.
                       NDRGVS      31.0 24.        24.           27.      25.
                                                                                  1. 9

                                                                                   28.
 Other                 DRG 468     36.
                       NDRGVS
                                                   37.           29.      21.1     24.
                                           15.     14.           12.      13.      11. 0


 Appendix E-4:         DRG 468 reasons for errors by patient demography
                Mis- specification        Miscoding
             Resequencing              Other
 Age   (years)         66.                59.
 Sex (% male)          37.                                       79.                      71.1
 LOS   (days)                             50.
                       13.                                                                57.
Payment (S)            6116
                                          11. 6                  12.
Mortality                                 4921                   5320
                       25.                                                                5151
                                                                                          14.

Appendix F-l: DRG 468            corrected relative weights

Relative weight                   Bed size
                                  GOO             100-299                        Average-
Average
                                                        300+             total
Paid
                               0818
Corrected
                          6092
                                                    0818           0818           0818
Difference
                         4726
                                                    9497        1. 8789           8911
                                                    1321           2029           1908
Total

Paid
                             49. 9632
Corrected
                                        60. 3722      58. 2904        168. 6258
Difference
                       38. 6208        56. 5413      52. 6092
                                  11. 3424                                      147. 7713
                                                    8309          6812          20. 8545
                      (%)€




Appendix F-       DRG 468 corrected reimbursement€

                             Bed size                              Average-
Avera€
                             (100             100- 299   300+      total
Paid€                           959             530        416       929
Cor:-ected€                     833             179        791       388
Difference€                     126           351        625       541
Total€
Paid€                        119 023          160 381    179 657   459 063
Corrected€                      , 003         150 204    162 147   404 354
Difference€                       020            177        510       709
Overpayment    rate          (22.             (6.        (9.       (9.€

Appendix F-€      Overpayment proj ection€
Fiscal Year€      Reimbursement       Overpayment€
                  (S million)         ($ million)€
1984€             396.                36.€
1985€             729.                66.€
1986€             887.                80.€
1987€             938.                85.€
1988 est.€          184.              107.€
1989 est.€          362.              124.€
1990 est.€          541.4             140.€
Overpayment calculated as 9. 1 percent of reimbursement.€
Estimates based on linear regression.€
Appendix G-          Correct MDC for discharges incorrectly assigned to DRG 468€
Number                              Bed size
                                    (100 100- 299   300+   Total   (Percent)
01 :    Nervous System
03:     Ear     Nose and Throat                                    (4.
04:     Respiratory System
                                                                   (4.
05:     Circulatory                                                (4.
06:     Digestive                                                  (8.
07:     Hepatobi1iary & Pancreas
                                                                   (12.
08:     Musculoskeletal                                            (4.
09 :    Skin and Breast
                                                                   (12.
11:	 Kidney and Urinary Tract                                      (8.
12: Urological                                                     (4.
13: Gynecological                                                  (4.
14: Delivery                                                       (12.
16: Blood Hematopoietic                                            (8.
21: Injury, Poisoning & Drugs                                      (4.
23 :    Other                                                      (4.
                                                                   (4.
Total                                                              (100.
 Appendix G-      Correct DRG for discharges incorrectly assigned to DRG 468€
 Number                               Bed size

        Concussion
        Sinus & mastoid procedures
        Respiratory infections
                                      (100 100- 299   300+ Total
                                                                 (4.
                                                                (4.
                                                                       (Percent)

 127
 142
        Heart failure & shock
        Syncope & collapse
                                                                (4.
                                                                (4.
 148 Lower gastrointestinal procedures                          (4.
154 Upper gastrointestinal procedures 0                         (4.
161     Hernia
        Liver     repair
                disorders                                       (4.
205
210     Hip procedures
218 Lower extremi ty procedures
                                                                (4.
                                                                (4.
                                                                (4.
                                                                (4.
264
325
        Skintractgraft
240 Connective tissue disorders
        Urinary    symptoms
                                                                (4.
                                                                (8.
336 Transurethral prostatectomy                                (4.

364
374
395
        Conization
354 Uterine malignancy procedures
360 Vagina , cervix , & vulva procedures 0
        Vaginal delivery & sterilization
        Red blood cell disorders
                                                               (4.
                                                               (4.
                                                               (4.
                                                               (4.
                                                               (8.
        Trauma procedures                                      (4.
443
461     Other  diagnoses                                       (4.
                                                               (4.
Total
                                                               (100.
Appendix H-1:   DRG 468 clinical review
Number          Bed size                                    Weighted percentage
(Percent)       (100 100- 299           300+ Total           Sample Discharge                 Hospi tal
Unnecessary
admissions      2 (8.           1 (3.         o (0.                (3.               (2.          (5.
Poor quality
of care         2 (8.           2 (6.         1 (3.                (6.               (5.          (8.
Premature
discharge       a (0.           1 (3.         a (0.                (1. 2)            (1. 5)       (1.1)

Appendix H-     DRG 468       clinical review comparison
Percent                 Bedsize                       Wei   hted ercenta
                        000 100- 299          300+ Sample        Discharge Hospital
Unnecessary     DRG 468€
admissions      NDRGVS          12.     10.                  10.   10.      11. 3€

Poor quality    DRG 468
   care         NDRGVS         11. 4

Prema ture      DRG 468                                     1. 2   1.5      1.1
discharge       NDRGVS                                      1.1             1.4
Appendix I:   HCFA comments
, -.€                                     ':.                          . -      ~~~
                                                                                  ""y        !)                   .. )€




                                                                              ..IZ'€
                                                                               Hr-j)               FoG€
                                                                                  e /e..:y        Health Care
            DEPARTME-'T OF HEALTH &. HL' ".A-' SERVICES                                            nanCll1g   AdmInIS:' 3:, a""
                                                                                                    "DL'€
                                                           I'm-I€
 'IC€
                                                                                                  Memorandum€
 Da!t'€
             Err y   COle'1.an

             c:in                inistrator€
                 Gr2                     o;t    DRG 468:     Unrel ated Operati ng Room Procedures,
 Sub!ec:€   0'-1- 12- 83- 01170

             he Inspecto                  General
 '10€       Offi ce of the Secretary

            We have reviewed the draft r ort on DRG 468. HCFA recognized many of the

            problems with DRG 468, and we have taken a number of steps to correct the

            deficiencies. Our specific comments on the recommendations are attached

            for your consideration.


            Thank you for the opportunity to comment on thi s report.


            Attachment€




                       DIG€

                     c1J          ;b €

                       AlG-l €

                       ADM €

                       OGC/IG €

                       EXSr:C€
                       DATE              SF.€



                                                                                                                  Co'€
                                                                  , "




                                                   Comments of the€
                                        Health Care Flnanclna Administration€
                                         on the OiG Draft Reoort    DRG 468:€
                                        Unrelatea Dperatina Room Procedures
                                                  OAI- 12- 88- 01l70


Geceral Comments

The period studied was FY 1985.  e believe that this report is out of
aa:e. Si nce that time,HCFA has taken steps to reduce the number of cases
assigned to DRG 468. These actions should be addressed in the report.

Once again , we find the use of the term overpayment in connection with
81 discharges reviewed to be inappropriate in the context of the Medicare
pros pect i ve payment sys tem (PPS).                    h i 1 e we agree that cod i ng accuracy is
vital to the correct DRG assignment, the payment for an indtvidual DRG
does not determine the aggregate effect of p: on individual hospitals or
groups of hospitals.

O:G Recommendation

The Health Care Financing Administration (HCFA) should ensure that the
PROs review prospectively all bills for DRG 468. This proces s shou 1
yield $140 million annually.

HCr A Res pon se


 e disagree with the recommendation and projected .                      savings of $140   million
annually for the follo,ing reasons:

        The data on which these projections were made is old and based on
        cases from early in PPS. Substantial growth has taken plac
        understandi ng how to document and code for the system.

        HCFA has held training sessions across the country for all PROs and
        instructed PROs to educate hospitals in correct coding principles.
        Additionally, outside groups such as the American Medical Record
        Association and the American Hospital Association have put
        considerable emphasis on correct coding. These Associations have
        conducted training sessions and publis    numerous articles to educate
        coders. The data for DRG 468 should no longer have the same high
        percentage of errors.

         For economies of scale, HCFA has reduced the sample for required
         revi ew to 50 percent, n the . thi rd scope of work. We be 1 i eve th is to
         be sufficient to identify problem areas where review should be
         intensified.
  Page 2

                                                                         . of tases
       HCF  recognized that there were problems with the numbers
                                      looking at the data, we found that a
       being assigned to DRG 468. In                                 , as of
       large volume of cases fell into two distinct categories which
                                                             The number of
       O:toDer 1988, have been developed into two new DRGs.
       cases which will now fall into DRG 468 has been substantially reduced
                                                                       gs.
       ana will , therefore, directly impact on the OIG estimated savi
   OIG Reco    mendation
                                                             i ew of " all"   DRG 468
   The HCFA shou 1 d determi ne why the on-goi ng PRO rev
                                                  2 percent of this populatio
   discharges actually reabstracts only 80.

   HCFA Response
                                                          second scope of work
   OIG reported that during the first 18 months of the.
   the PROs reviewed only 80. 2 percent of the cases assigned to DRG 468.
   HCFA' s official PRO Medical Review Activity Reports atfor the 24 months of
                                                            PROs reported
-- the second scope of work, recei ved to date, show th           420 discharges
    reviewing 179, 598 or 91. 9 percent of the population of 195,
   ass i gned to DRG   468.
                                                                                sti 11 in
   The remaining 8. 1     percent of discharges assigned to DRG 468 are
                                                                         the new
   the PRO review      process and wi 11 be reviewed and reported during
    PRO contract cyc

    OIG Reco    mendat ion

    The HCFA should reabstlact a large sample of DRG 468
                                                       of bills for
                                                          all DRG   coding
                                                                  468
    accuracy tbdetermine why the on-going PRO review
    discharges fails to detect the 14. 0 percent (SuperPRO rate) to
    percent (OIG rate) of discharges incorrectly billed to DRG 468.

    HCFA Response
                                               Through the SuperPRO contract and
    We di sagree with thi s recommend at i on.            ' review of DRG 468
    evaluations protocols, HCFA is validating the PROs€
                                                  i ng correct determi nat    ions.   These

    bi 11 s   to determi ne if the PROs are mak
    results are used to identify problems and institute necessary corrective
     action.
     DIG Recommendation

     The HCFA should reabstract a large sample of DRG 468 bills  for coding
                                     PRO identifies only 14. 0 percent of
     accuracy to determine why Super                                 , identifies
     incorrect PRO confirmation of DRG 468 bills, whereas this st.
     a 24.    8 percent rate.
 Page 3€


 HCFA ResDonse

 e do   not agree with this recommendation. The DIG'€
based   on FY 1985 data. The SuperPRD                 s disagreement rate is€
data.                                  disagreement rate is based on current€
        Therefore , we do not believe that it is necessary to determine why€
there   is a difference between these disagreement rates since they cannot€
be Co   pared.
As mentioned previously, since the periOd the DIG studied€
been added and HCFA has conducted training sessions to educate  , new hospitals€
                                                                      DRGs have€
incorrect cod i ng pri nc i p
                              1 es. Under the scope of work
reviewing a 50 percent sample of       DRG 468.             , PROs wi 11 be
                                                Problem areas
identified and corrective actions will be implemented      whenwill  be
                                                                 appropriate.€
